Case: 20-2972

Document: 19-1

Filed: 01/08/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

January 8, 2021
By the Court:
CHADD A. MORRIS,
Plaintiff - Appellant
No. 20-2972

v.

SHAN JUMPER, et al„
Defendants - Appellees
Originating Case Information:
District Court No: 4:18-cv-04121-SLD
Central District of Illinois
District Judge Sara Darrow

This cause, docketed on October 13, 2020, is DISMISSED for failure to timely pay the
required docketing fee, pursuant to Circuit Rule 3(b).

form name: c7_FinalOrderWMandate(form ID: 137)

(1 of 3)

4:18-cv-04121-SLD #141

Page 1 of 12

E-FJLED

Thursday, 24 September, 2020 04:46:20 PM
Clerk, U.S. District Court, ILCD
UNTIED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS x
ROCK ISLAND DIVISION
CHADD A. MORRIS,
Plaintiff,
v.
SHAN JUMPER, et al.

)
)
)
)
)
)

18-4121

<-

Defendants.
SUMMARY JUDGMENT OKnit.P
Plaintiff, proceeding pro se and presently civilly detained at Rushville Treatme
nfand
Detention Center brought the present lawsuit pursuant to 42 U.S.C. § 1983 alleging
a violation ox
ins Fourteenth Amendment rights. The matter comes before this Court for ruling
on the
Defendants’ Motions for Summary Judgment. (Docs. 112,123). The motions are granted..
PRELIMINARY MATTERS
Plaintiff’s Motion to Clarify, Object, and Reconsider (Doc. 120)
Plaintiff asks the Court to reconsider the rulings made in its December 19,2019 Order.
(Doc. 116). “Motions for reconsiderati on serve a

limited function: to correct manifest errors of
law or fact or to present newly discovered evidence.”
Caisse Nationale de Credit Agricole v. CBl\
\
Industries, Inc., 90 F.3d 1264, 1269 (7th Cir. 1996) (internal citations and quotation markr
omitted).
The Court’s December 2019 Order denied Plaintiffs

request for injunctive relief relating

to the treatment he was receiving at the time. The Court’s ruling was limited to
Plaintiff had not made the requisite showing to

a finding that

warrant injunctive relief and that the Court
otherwise lacked authority to issue the orient Plaintiff desired. Plaintiffhas
not presented any

Page 1 of 12

4:18-CV-04121-SLD # 141

Page 2 of 12

newly discovered information or shown how the Court misapplied the law. Plaintiff’s motion is
denied.
Plaintiff’s Motions to Object (Docs. 121,127,129)
Plaintiff asks the Court to strike Defendants’ respective replies to his summary judgment
responses. Local rules limit arguments in a reply brief “to new matters to new matters raised in
the response and must not restate arguments already raised in the .motion.” CDIL L.R.
7.1(D)(3)(b). Plaintiff argues Defendants rehashed arguments made in their original motions and
thus violated the local rules.
Defendants’ reply arguments are limited in scope to addressing the arguments Plaintiff
made ir his respective responses. This was permissible. Plaintiff1 s motions (Doc. 121,127) are
denied. Plaintiffs motion (Doc. 129) is denied as duplicative. Compare (Doc. 127).
Plaintiffs Motions to Give Court Clarification (Doc. 128,130)
Plaintiff states that Defendants mischaracterized one of his summary judgment responses
as an “< mended response,” and that he intended for the Court to consider the relevant document
as a supplemental response. Plaintiff seeks to ensure that his initial response is not considered
moot The Court did not consider any previous responses as moot. As there is no relief the Court
can grant Plaintiff, the motion (Doc. 128) is denied. Plaintiff’s motion (Doc. 130) is denied as
duplicative. Compare (Doc. 128).
Plaintiffs Motions (Docs. 131,135,137,138,139)
Plaintiff filed several motions asking the Court to consider several events that occurred
between March 2020 and August 2020 as evidence of Defendants’ liability. Plaintiff alleges in
the motions that TDF staff cannot offer treatment to address his issues with developing healthy
sexual relationships because TDF rules prohibit residents from having sex with each other, that

Page 2 of 12

4:18-cv-04121-SLD # 141

Page 3 of 12

the rules against touching other residents are not enforced equally, that recommendations in his
April 2020 Master Treatment Plan do not render this lawsuit moot, that other residents acted
maliciously towards him during a group therapy session in July 2020, that the facility refuses to
provide him with individualized treatment, and that officials have refused to follow
recommendations because of the Covid-19 pandemic.
The events Plaintiff alleges occurred after discovery closed in this matter and after
Defendants’ motions for summary judgment were fully briefed. The events involve several IDF
officials who are not defendants in this lawsuit and relate to distinct treatment decisions not at
issue in this lawsuit. Reopening discoveiy or permitting Plaintiff to pursue these allegations in
this lawsuit would unnecessarily delay these proceedings and violate the rules of joinder. George
v. Smith, 507 F.3d 605, 607 (7th Cir. 2007) (“Unrelated claims against different defendants
belong in different suits.”); Owens v. Godinez, 860 F.3d 434,436 (7th Cir. 2017) (“[Djistrict
courts should not allow inmates to flout the rules for joining claims and defendants.. .or to
circumvent the Prison Litigation Reform Act’s fee requirements by combining multiple lawsuits
into a single complaint.”). Plaintiff’s motions are denied.
Plaintiff’s Motion for Reconsideration (Doc. 136)

Plaintiff asks the Court to reconsider previous rulings under 28 U.S.C. § 1331 and 28
U.S.C. § 1343. Plaintiff asks the Court to apply these statutes “to the claims/issues already
presented in this suit.. .to then afford the Plaintiff his ‘widest ability to recover on damages to
him... and subsequently to reconsider all prior dismissed claims.’” (Doc. 136 at 3).
The Court’s Merit Review Opinion found that Plaintiff stated a Fourteenth Amendment
claim for inadequate sex offender treatment. (Doc. 8). The Court later denied Plaintiffs request
for leave to add a First Amendment retaliation claim for lack of information regarding the names

Page 3 of12

4:18-ev-04121-SLD # 141

Page 4 of 12

of the officials who allegedly retaliated and when they did so. (Doc. 69 at 3). Plaintiff did not file
a motion seeking .leave to amend his complaint thereafter.
The statutes Plaintiff cites grant the Court jurisdiction over Plaintiff’s federal civil claims.
The Court did not dismiss any claims for lack ofjurisdiction, and its jurisdiction over the claims
pending in this lawsuit is not in dispute. Plaintiffs motion is denied.
Defendants’ Motion to Strike (Doc. 132) and Plaintiffs Motion for Clarification (Doc. 143)
Defendants characterized Plaintiffs motions (Docs. 127,129,131) as sur-replies to
Defendants’ summary judgment reply, and they ask the Court to strike these documents. Plaintiff
filed a motion (Doc. 143) in response asking the Court to strike Defendants’ reply briefs. Both
motions are denied as moot.
SUMMARY JUDGMENT STANDARD
Summary judgment should be granted “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
(Civ. P. 56(a). All facts must be construed in the light most favorable to the non-moving party,
and all reasonable inferences must be drawn in his favor. Ogden v. Atterholt, 606 F.3d 355,358
(7th cir. 2010). The party moving for summaiy judgment must show the lack of a genuine issue
of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). In order to be a “genuine”
issue, there must be more than “some metaphysical doubt as to the material facts.” Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 415 U.S. 574,586 (1986). “Only disputes over facts that
might affect the outcome of the suit under the governing law will properly preclude the entry of
summary judgment.” Anderson v. Liberty Lobby, Inc., All U.S. 242,248 (1986).

Page 4 of 12

4:18-cv-04121-SLD # 141

Page 5 of 12

FACTS
Plaintiff is civilly detained at Rushville Treatment and Detention Facility (“TDF”)
pursuant to the Sexually Violent Persons Commitment Act, 725 Ill. Comp. Stat. § 207/1 et seg.
(“SVP Act”). The SVP Act defines “sexually violent person” as “a person who has been
convicted of a sexually violent offense.. .and who is dangerous because he or she suffers from a
mental disorder that makes it substantially probable that the person will engage in acts of sexual
violence.” 725 Ill. Comp. Stat. § 207/5(f). A person detained under the Act remains so confined
until the state court discharges the commitment petition or enters a commitment order. Id. §
207/35(f). Commitment lasts until such time that the individual is no longer a sexually violent
person. Id. § 207/40(a).
Defendants are employed at the TDF in the following capacities: Defendant Scott is the
Program Director; Defendant Jumper is die Clinical Director; Defendants Dobier, Sheldon,
Moody, Howell, Houzenga, Smith, and Pettiford are clinical therapists assigned to Plaintiff s
treatment team (“treatment team,” collectively); and, Defendants Simpson and Vincent are
grievance examiners. Plaintiff alleges these individuals violated his Fourteenth Amendment
rights.

The TDF offers a voluntary group therapy program designed to treat the mental health
conditions that predicate a resident’s confinement. (Doc. 123-2 at 2, f 8). Programs include sexoffender specific treatment (“core treatment”), as well as other rehabilitative programs,
“designed to help residents understand and control thought processes which may lead to sexual
offenses, to control deviant arousal, and to help residents avoid problems that may have led to
past sexual offenses.” Id., U 9. The goal of treatment “is to assist the resident in learning the skills
necessary to prevent relapse of the behaviors which led to commitment.” Id.,

Page 5 of 12

10. Each resident

4:18-CV-04121-SLD # 141

Page 6 of 12

who consents to treatment is assigned to a treatment team comprised of mental health
professionals responsible for developing a treatment plan specific to the resident’s needs. Id.,
11.
Plaintiff consented to treatment in March 2009. (Doc. 43-1 at 3). Plaintiffs treatment
records suggest that in 2014-2015 he had been assigned to Disclosure group. E.g. (Doc. 43-19 at
11). Disclosure group is a core treatment group that requires Plaintiff to present the timeline and
details of his sexual offenses and to receive feedback from treatment providers and other TDF
residents to ensure that he takes full responsibility for his past offenses. Pl.’s Dep. 19:18-20:17.
In the year or so preceding the events at issue in this lawsuit, Plaintiff participated in several
treatment groups ancillary to core treatment designed to address issues that created barriers to
treatment. (Doc. 43-19 at 6,10) (Anger Management; Healthy Relationships); Pl.’s Dep. 43:5-11
(Distortions; Good Lives).
Treatment staff facilitating the “Power to Change” ancillary group in 2015-2016 noted
Plaintiff s difficulties receiving feedback and interacting in a group setting. See (Doc. 43-20 at
19) (Plaintiff “had low receptivity to feedback from group members or facilitators.”); id. at 9
(Plaintiff’s feedback was sometimes harsh and unclear. He “appears to have much difficulty
accepting feedback.”); id. at 8 (Plaintiff antagonized other group members, disobeyed staff
instructions, and made “inappropriate comments that detracted from the group.”); id. at 5
(Plaintiff called other group members “fucking idiots,” and made offensive hand and other
gestures.”); id. at 3 (Plaintiff “tended to have difficulty receiving feedback....[He] tended to be
dismissive of others, discounted others feedback/questions, and rigid in his perceptions.”); (Doc.
43-20 at 3) (Plaintiff5s feedback was either accurate or “considerably inaccurate to the point it
disrupts the group process and flow of discussion.”); (Doc. 43-20 at 3) (“A group member

Page 6 of 12

4:18-cv-04121-SLD # 141

Page 7 of 12

offered feedback that [Plaintiff] tended to react emotionally before thinking things through.
[Plaintiff] attempted to utilize the statement as a justification for his actions and also that others
should know that is how he reacts”).
Plaintiff returned to Disclosure group in August 2016, after showing signs of
improvement. Id. at 5 ('‘When [Plaintiff was] composed, he was capable of offering feedback
and asking pointed, but appropriate questions.”); (Doc. 43-4 at 17) (Plaintiffs “delivery while
offering feedback appeared sincere and appropriate. He was open to criticism and feedback.”).
Treatment records indicate no issues in Disclosure group through the beginning of 2017.
Plaintiffs treatment records for March 2017 indicate that he had exhibited “some
growths in the group setting however [Plaintiff] has taken some steps back behaviorally with his
commitment to treatment.” (Doc. 123-2 at 3). Plaintiff had been asked to leave a group session
after he disobeyed staff directions, and he participated in group discussions “in a passive
aggressive or in a sarcastic manner rather than an assertive manner.” Id. On April 4, 2017,
Plaintiffs treatment team noted Plaintiffs “ongoing issue[s] such a crossing boundaries,
sexually acting out, and spending a significant amount of time focusing on what [Plaintiff]
perceived as injustices instead of focusing on positive change and interpersonal effectiveness.”

(Doc. 123-2 at 2). On April 12,2017, Plaintiff’s treatment team decided that Plaintiff “will not
go to Disclosure Group until he has proven that he can follow directions, meet behavioral
expectations outside of group (no rule violations, etc) and complete special assignments to the
satisfaction of the treatment team.” (Doc. 123-2 at 2). Plaintiff was assigned to mentoring group
on Defendant Dobier’s caseload. Id.
Plaintiff attended mentoring sessions once per week through mid-May 2017. (Doc. 123-2
at 1). Defendant Dobier asked Plaintiff to complete written assignments on the following topics:

Page 7 of 12

4:18-cv-04121-SLD # 141

Page 8 of 12

“How anger is [a] barrier for his progress in treatment/group, Entitlement, most recent
inappropxiate behaviors on the unit and sexually acting out within the last year.” Id. Plaintiff
failed to complete his first assignment in the manner directed, told treatment staff he could not
complete the inappropriate behavior and sexually acting out assignment because he had not
engaged in such activity, and expressed his belief that the treatment team was “dicking him
around."’ Id. Plaintiffs treatment team referred Plaintiff to the Power to Change group on May
17,2017, to address barriers that included “not taking responsibility for his negative behaviors,
being consistently argumentative, and continuously playing ‘victim stance.’” Id.
Plaintiff disagreed with Defendant Dobier during a July 17,2017 meeting that the Power
to Change group would be able to address his barriers. (Doc. 43-17 at 14). He told Defendant
Dobier that he would continue to file grievances on the issue. Id. Defendants Simpson and
Vincent, in their capacities as grievances officers, told Plaintiff in their responses to his
grievances that treatment decisions were not grievable and to contact his treatment team about
treatment-related issues. (Doc. 123-6 at 15). Giievance examiners did not have the authority to
override treatment decisions or otherwise recommend a course of treatment to Plaintiffs
treatment team. (Doc. 123-4 at 3,

18-22). Emails Plaintiff provided show that Defendants

Simpson and Vincent forwarded these grievances to Plaintiffs treatment team f$r a response.
(Doc. 43-4 at 16,19-25).
Plaintiffjoined the Power to Change group m August 2017. (Doc. 43-17 at 16).
Treatment records indicate that Plaintiff struggled to demonstrate the skills he would need to
complete Disclosure group. See id. (Plaintiff “shuggled to take feedback and even to listen
before a group member was done speaking.”); id. at 18 (Plaintiff “struggled to not monopolize
the group” despite staff directions to refrain, “failed to accept responsibility for any part” in a

Page 8 of 12

4:18-cv-04121-SLD # 141

Page 9 of 12

negative incident he had with security staff, and “often discounts feedback of other group
member as well as therapists.”); id. at 20 (Plaintiff “continued to struesle with takins persqnal
responsibility for issues he experiences with other residents and staff” and “offers feedback to
others in a way that serves his own agenda... and is often limited in insight and personal
responsibility.”); id. at 22 (Plaintiff struggled with (1) “insight into his barriers and need for
change,” (2) blame towards countless others in the facility many of whom have no control over
issues he presents,” (3) entitlement issues, and (4) “negative behaviors and attempted
manipulation tactics towards group members as well as therapists.’ ); (Doc. 43-18 at 4) (Plaintiff
“struggles to put his feelings into words and struggles to explain himself without blame towards
others.”). Plaintiff showed some progress. Id. (Plaintiff “was noted to give spot on feedback and
was informed of such.”); (Doc. 43-18 at 2) (“Mr. Morris was able to show improvement in his
delivery of feedback and ability to receive feedback without becoming dysregulated”).
Defendants Simpson, Vincent, Scott, and Jumper did not participate in the treatment
decisions Plaintiff challenges in this lawsuit. Defendant Pettiford began employment at the TDF
on July 24,2017; she was not involved in any treatment decision prior to that point. (Doc. 123-7
at 1, If 1).

ANALYSIS
Civil detainees are constitutionally entitled to conditions and durations of confinement
that bear some reasonable relationship to the purposes for which they are committed. Allison v.
Snyder, 332 F.3d 1076,1079 (7th Cir. 2003). Officials must provide “some treatment” for the
underlying mental health conditions that led to a resident’s confinement .but the nature of that
*

i

treatment is left to the discretion of Qualified mental'health professionals. Id. at 1081. Treatment
decisions are “presumptively valid” and entitled to deference unless the evidence shows that the

Page 9 of 12

4:18-cv-04121-SLD # 141

Page 10 of 12

decision constituted “such a substantial departure from accepted professional judgment, practice,
or standards, as to demonstrate that die person responsible actually did not base the decision on
such a judgment.” Sain v. Wood, 512 F.3d 886,895 (7th Cir. 2009); see also Youngberg v.
)

Romeo, 457 U.S. 307, 323 (1982).
Plaintiff argues that 20 Ill. Admin. Code § 1905 creates the relevant professional
standards and prohibits Defendants from “imposing behavioral expectations to the Plaintiff, and
relying on his so called ‘adverse behavioral issues’.. .when making” treatment decisions. (Doc.
125 at 5). Section 1905 states that treatment providers must abide by the current ethical and
professional standards in their fields of expertise, appreciate that sex-offender treatment “is an
evolving science,” and “recognize the importance of individualized, assessment-driven treatment
services ” 20 Ill. Admin Code § 1905.90. The section does not prescribe the specific manner that
sex-offender treatment must be provided, nor. does Plaintiff cite to any provision that prohibits
.consideration of behavioral issues as they relate to a resident’s ability to successfully complete
the requirements of treatment.
Plaintiff does not provide evidence showing that the prevailing standards in the field
~ render consideration of his.behavior at the TQF wholly inappropriate or unrelated to factors tha:'
may cause him Vo reoffend. Assuming Plaintiff’ could show a violation of state Yaw, Defendants’.
alleged noncompliance does not create a federally enforceable right or demonstrate a
constitutional violation. Guarjardo-Palma v. Martinson, 622 F.3d 801, 806 (7th Cir. 2010) (“[AJ .
violation of state law is not a ground for a federal civil rights suit.”); Allison, 332 F.3d at 1079
(The federal constitution does not “permit a federal court to enforce state laws directly.”).
Plaintiff’s treatment team has consistently opined that he needed to learn and demonstrate
an ability to positively interact with group members and accept responsibility for his everyday

Page 10 of 12

4:18-cv-04121-SLD # 141

Page 11 of 12

actions before he would be able to successfully complete the requirements of Disclosure group.
Nothing m the record suggests Jhat their decisions to place Plaintiff in ancillary groups designed
to address these issues l&kedThe requisite exercise of professional iudement. Plaintiff does not
have a constitutional right to remain in any specify treatment group, and his_disagreement with the treatment team’s decisions is insufficient to impose constitutional liability. Williams v. Ortiz,
937 F.3d 936,944 (7th Cir. 2019).
Defendants Scott, Jumper, Simpson, and Vincent were not personally involved in the
treatment decisions Plaintiff challenges, and, therefore, they cannot be held liable for same under
§ 1983. Vance v. Peters, 97 F.3d 987,991 (7th Cir. 1996) (“Section 1983 creates a cause of
action based on personal liability and predicated upon fault; thus, liability does not attach unless
the individual defendant caused or participated in a constitutional deprivation.”). Defendants
Scott, Simpson, and Vincent were entitled to defer to the expertise of Plaintiff’s treatment team
without fear of liability for doing so. See Berry v. Petennan, 604 F.3d 435, 440 (7th Cir. 2010).
Defendants Simpson and Vincent infoimed Plaintiff of the proper channels through which he
could address treatment decisions and otherwise notified treatment staff of his concerns. Plaintiff
has not shown a constitutional denrivatinn of which Defendant Jumper could have been

aware

and able to remedy
The Court finds that no reasonable juror could conclude that Defendants violated *
Plaintiff s Fourteenth Amendment rights.
IT IS THEREFORE ORDERED:

W fmmMjfreDOEMEDlll2l,[127|II28|(1M|fI30,U31||,34,,135HI3<'111371
2) Defendants’ Motion £132] is DENIED.

Page 11 of 12

4.-18-CV-04121-SLD # 141

Page 12 of 12

3) Defendants’ Motions for Summary Judgment f!12J[123] are GRANTED. The clerk
of tiie court is directed to enter judgment in favor of Defendants and against
Plaintiff. All pending motions not addressed below are denied as moot.
4) If Plaintiff wishes to appeal this judgment, he must file a notice of appeal with this
Court within 30 days of the entry of judgment. Fed. R. App. P. 4(a)(4). A motion for
leave to appeal in forma pauperis MUST identify the issues the Plaintiff will present
on appeal to assist the court in determining whether the appeal is taken in good
faith. See Fed. R. App. P. 24(a)(1)(c); see also Celske v Edwards, 164 F.3d 396,398
(7th Cir. 1999)(an appellant should be given an opportunity to submit a statement of
his grounds for appealing so that the district judge “can make a reasonable
assessment of the issue of good faith.”); Walker v. O'Brien, 216 F.3d 626,632 (7th
Cir. 2000)(providing that a good faith appeal is an appeal that “a reasonable person
could suppose...has some merit” from a legal perspective). If Plaintiff does choose to
appeal, he will be liable for the $505.00 appellate filing fee regardless of the outcome
of the appeal.

Entered this 24th day of September, 2020.

s/Sara Darraw
SARA DARROW
CHIEF U.S. DISTRICT JUDGE

Page 12 of 12

